HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services - Northfield Hospital, Northfield, Minnesota,"(A-05-03-00097)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services - Northfield Hospital, Northfield, Minnesota," (A-05-03-00097)
November 4, 2003
Complete Text of Report is available in PDF format
(189 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to
determine whether Medicare properly reimbursed Northfield Hospital (Hospital) for outpatient cardiac rehabilitation services.  Our
review disclosed the Hospital did not designate a physician to directly supervise the services provided by its cardiac
rehabilitation program.  In addition, contrary to current Medicare requirements, we could not identify the physician
professional services to which the cardiac rehabilitation services were provided “incident to.”  Also, the Hospital
claimed and received Medicare reimbursement for outpatient cardiac rehabilitation services, amounting to approximately
$27,013, which did not meet Medicare coverage
requirements, which may not have been supported by medical record documentation, or which were otherwise unallowable.  We
recommended that the Hospital: (1) work with its fiscal intermediary, Noridian Government Services, to ensure that the
Hospital’s outpatient cardiac rehabilitation program is being conducted in accordance with the Medicare coverage requirements
for direct physician supervision and for services being provided “incident to” a physician’s professional service; (2)
work with Noridian Government Services to establish the amount of repayment liability, estimated to be $27,013, for services
provided to beneficiaries where medical documentation may not have supported Medicare covered diagnoses and for services
not otherwise allowable; (3) implement controls to ensure that only one unit of service is billed to Medicare for each
outpatient cardiac rehabilitation visit; (4) implement controls to ensure that outpatient cardiac rehabilitation service
documentation is maintained and (5) implement controls to ensure that outpatient cardiac rehabilitation initial evaluations
without exercise are either performed by a Hospital physician or not billed to Medicare.